Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




PENNSYLVANIA’S GROSS RECEIPTS
  TAX ON MEDICAID MANAGED
     CARE ORGANIZATIONS
APPEARS TO BE AN IMPERMISSIBLE
  HEALTH-CARE-RELATED TAX


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                  Daniel R. Levinson
                                                   Inspector General

                                                       May 2014
                                                     A-03-13-00201
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

 Pennsylvania’s Gross Receipts Tax on Medicaid managed care organizations appears
 to be a health-care-related tax that is impermissible for Medicaid funding. Through
 this tax, Pennsylvania collected $1.76 billion of taxes from its Medicaid managed care
 organizations over 3 years and used that money to pay some of its share of capitation
 payments.

WHY WE DID THIS REVIEW

To comply with the requirements of the Deficit Reduction Act of 2005, Pennsylvania
discontinued its health-care-related tax on Medicaid managed care organizations (MCOs) in
September 2009. Pennsylvania then established a Gross Receipts Tax on the Medicaid revenues
of its MCOs to be effective in October 2009.

The objective of this review was to determine whether Pennsylvania’s Gross Receipts Tax on the
Medicaid revenues of its Medicaid MCOs is a permissible health-care-related tax under Federal
requirements.

BACKGROUND

States may implement managed care delivery programs to increase access to and quality of care
for Medicaid beneficiaries and to stabilize the States’ Medicaid spending. States contract with
managed care entities to provide specific services to enrolled Medicaid beneficiaries, usually in
return for a predetermined periodic payment, known as a capitation payment.

Within certain limits, States are permitted to use revenues from health-care-related taxes on
certain classes of health care services to help finance the State’s share of Medicaid expenditures.
Before 2005, the law defined Medicaid MCO services as one of the specified classes of health
care services on which States could impose such a health-care-related tax. In 2005, the Social
Security Act was amended to redefine this class as services of MCOs (but not limited to
Medicaid MCOs). This amendment changed the definition of a broad-based tax for this class of
provider. The change was effective October 1, 2009. After October 1, 2009, these taxes had to
apply to all MCOs.

Pennsylvania provides Medicaid services through its HealthChoices managed care waiver
program. In July 2004, Pennsylvania implemented a tax on the income of its Medicaid MCOs.
In September 2009, Pennsylvania discontinued that tax and in its place levied a Gross Receipts
Tax on income from Medicaid MCO services. In some years, Pennsylvania added a surcharge
tax on income covered by the Gross Receipts Tax. For State fiscal years (FYs) 2009–2010
through 2011–2012 (the audit period), Pennsylvania collected approximately $1.76 billion in
Gross Receipts Tax revenue from its Medicaid MCOs. MCOs in Pennsylvania that did not
provide Medicaid services were not subject to the Gross Receipts Tax.




Pennsylvania’s Gross Receipts Tax on Medicaid Managed Care Organizations (A-03-13-00201)   i
WHAT WE FOUND

Pennsylvania’s Gross Receipts Tax on Medicaid MCOs appears to be a health-care-related tax
that is impermissible for Medicaid funding. Through the Gross Receipts Tax, Pennsylvania
collected tax revenues of $1,758,155,583 from its Medicaid MCOs during the audit period and
applied those revenues to reduce its share of HealthChoices Medicaid managed care costs.
Pennsylvania included in its capitation rates a supplemental payment to cover the Medicaid
MCOs’ cost of the Gross Receipts Tax. We calculate that Pennsylvania reimbursed Medicaid
MCOs $1,603,980,052 for the Gross Receipts Tax. (We based our calculation on capitation
payments claimed for Federal reimbursement during the audit period.)

Pennsylvania’s Gross Receipts Tax on MCOs appears to be a health-care-related tax under the
definition established in the Federal regulations. The tax appears to be an assessment on health
care items or services, specifically the health care services provided by MCOs. If the tax is
determined to be health-care-related, it is impermissible because it is not broad based (the Gross
Receipts Tax does not apply to all MCOs) and because it holds the Medicaid MCOs harmless as
taxpayers (the State agency includes the cost of the Gross Receipts Tax as a supplemental
payment in its capitation payments to Medicaid MCOs).

Under Medicaid rules, revenues from an impermissible health-care-related tax may not be used
to finance the State’s share of Medicaid expenditures. However, by using revenues from this tax,
Pennsylvania lowered its share of MCO capitation payments and increased the Federal share.
During our audit period, the Federal Government paid $981,337,949 for supplemental capitation
payments designated to hold the Medicaid MCOs harmless. The MCOs received $1,603,980,052
in supplemental capitation payments to reimburse them for the Gross Receipts Tax, and
Pennsylvania retained $1,135,513,480 of Gross Receipts Tax revenues in its Medicaid MCO
fund. No additional services were provided and no additional beneficiaries were served with the
proceeds from the Gross Receipts Tax.

WHAT WE RECOMMEND

We recommend that CMS:

    •   determine whether the tax on Medicaid MCOs is an impermissible health-care-related tax
        and, if so,

            o offset $1,758,155,583 in Gross Receipts Tax revenue from State Medicaid
              expenditures: $533,936,161 from State FY 2009–2010, $581,452,384 from State
              FY 2010–2011, and $642,767,038 from State FY 2011–2012 and

            o offset Gross Receipts Tax revenue from Medicaid expenditures when determining
              the Federal share of Pennsylvania’s Medicaid program expenditures for periods
              after State FY 2011–2012; and

    •   clarify its policy concerning permissible health-care-related taxes with all States.




Pennsylvania’s Gross Receipts Tax on Medicaid Managed Care Organizations (A-03-13-00201)       ii
                  STATE AGENCY AND CENTERS FOR MEDICARE
              & MEDICAID SERVICES COMMENTS AND OUR RESPONSE

STATE AGENCY COMMENTS

In its comments on our draft report, the State agency said that it did not agree with our finding or
our recommendations to offset Gross Receipts Tax revenue from State Medicaid expenditures.
The State agency said that the Gross Receipts Tax on Medicaid MCOs is not a health-care-
related tax because the taxes it collected from Medicaid MCOs did not constitute more than
85 percent of all Gross Receipts Tax revenue and because the Medicaid MCOs are not treated
differently from other taxpayers. The State agency said that, although the Gross Receipts Tax on
Medicaid revenue of MCOs was not a health-care-related tax, it would have been permissible
because the hold harmless provision does not prevent the use of the tax to reimburse health care
providers for their expenditures. The State agency said that CMS had full knowledge that
Pennsylvania extended its Gross Receipts Tax to Medicaid MCOs as a revenue source for the
State share in claiming Federal matching funds for its Medicaid program. However, the State
agency supported the recommendation that CMS clarify the Federal requirements for health-
care-related taxes.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

CMS agreed with our recommendation that it clarify its policy concerning impermissible health-
care-related taxes. CMS also said that it “agrees that, based upon the information presented in
OIG’s report, it appears that the portion of the gross receipts tax imposed on Medicaid MCOs
may be considered a health-care related tax.” CMS said that, if it determines that the Gross
Receipts Tax is an impermissible health-care-related tax, it will work with Pennsylvania to
develop an approvable tax structure. However, because it has not issued subregulatory guidance
to explain this position, CMS did not agree that a disallowance is warranted until the States have
clear notice of its interpretation of the health-care-related tax requirements.

OUR RESPONSE

The State agency’s comments incorrectly interpreted the provision to mean that a tax is health
care related only if 85 percent of the tax burden falls on health care providers. If less than
85 percent of the burden falls on health care providers, a tax may still be considered a
health-care-related tax if it treats health care providers differently from other entities.

We agree with CMS that notice of its interpretation of the statute and regulations is necessary
and encourage CMS to provide clarification as soon as possible. Failure to do so will allow
additional States to implement tax programs similar to Pennsylvania’s Gross Receipts Tax to
obtain additional Federal funds. A proliferation of such tax programs could have a harmful
impact on the Medicaid program.




Pennsylvania’s Gross Receipts Tax on Medicaid Managed Care Organizations (A-03-13-00201)   iii
                                                     TABLE OF CONTENTS

INTRODUCTION .....................................................................................................................1

           Why We Did This Review .............................................................................................1

           Objective ........................................................................................................................1

           Background ....................................................................................................................1
                 Medicaid Program ..............................................................................................1
                 Pennsylvania’s Medicaid Managed Care Program ............................................1
                 Health-Care-Related Taxes ................................................................................2
                 Pennsylvania’s Taxes on Medicaid Managed Care Organizations ....................3

           How We Conducted This Review..................................................................................4

FINDING ...................................................................................................................................4

           Federal and State Requirements.....................................................................................5
           Pennsylvania’s Tax on Medicaid Managed Care Organizations Appears To Be an
            Impermissible Health-Care-Related Tax ....................................................................6
                 Pennsylvania’s Tax on Medicaid Managed Care Organizations
                   Appears To Be a Health-Care-Related Tax. ...................................................6
                 If It Is Health-Care-Related, Pennsylvania’s Gross Receipts Tax on
                   Medicaid Managed Care Organizations Is Impermissible. .............................7

           Pennsylvania Collected Taxes of $1.76 Billion From Medicaid Managed Care
            Organizations and Used That Money to Pay Some of Its Share of
            Capitation Payments ...................................................................................................9
           CMS Should Offset State Revenue From Impermissible
            Health-Care-Related Taxes .........................................................................................9

RECOMMENDATIONS .........................................................................................................10

STATE AGENCY AND CENTERS FOR MEDICARE & MEDICAID SERVICES
 COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE ..........................10

           State Agency Comments ..............................................................................................10

           Centers for Medicare & Medicaid Services Comments ..............................................10

           Office of Inspector General Response .........................................................................11




Pennsylvania’s Gross Receipts Tax on Medicaid Managed Care Organizations (A-03-13-00201)                                              iv
APPENDIXES

        A: Audit Scope and Methodology ..............................................................................12

        B: Federal and State Requirements .............................................................................14

        C: State Agency Comments ........................................................................................17

        D: Centers for Medicare & Medicaid Services Comments ........................................24




Pennsylvania’s Gross Receipts Tax on Medicaid Managed Care Organizations (A-03-13-00201)                            v
                                                INTRODUCTION

WHY WE DID THIS REVIEW

To comply with the requirements of the Deficit Reduction Act of 2005, Pennsylvania
discontinued its health-care-related tax on Medicaid managed care organizations (MCOs) in
September 2009. Pennsylvania then established a Gross Receipts Tax on the Medicaid revenues
of its MCOs to be effective in October 2009. For State fiscal years (FYs) 1 2009–2010 through
2011–2012, Pennsylvania collected $1,758,155,583 in Gross Receipts Tax revenue from its
Medicaid MCOs. 2

OBJECTIVE

The objective of this review was to determine whether Pennsylvania’s Gross Receipts Tax on the
Medicaid revenues of its Medicaid MCOs is a permissible health-care-related tax under Federal
requirements.

BACKGROUND

Medicaid Program

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities. The Federal and State Governments jointly fund and administer the Medicaid
program. At the Federal level, CMS administers the program. Each State administers its
Medicaid program in accordance with a CMS-approved State plan. Although the State has
considerable flexibility in designing and operating its Medicaid program, it must comply with
applicable Federal requirements. In Pennsylvania, the Department of Public Welfare (State agency)
administers the Medicaid program.

States may seek a waiver to implement managed care delivery programs (Social Security Act
(the Act), § 1915(b)). The managed care programs are intended to increase access to and quality
of care for Medicaid beneficiaries and to stabilize the States’ Medicaid spending. States contract
with managed care entities to provide specific services to enrolled Medicaid beneficiaries,
usually in return for a predetermined periodic payment, known as a capitation payment. States
report capitation payments claimed by Medicaid MCOs on the States’ Quarterly Medicaid
Statement of Expenditures for the Medical Assistance Program (Form CMS-64).

Pennsylvania’s Medicaid Managed Care Program

In February 1997, Pennsylvania initiated HealthChoices, its section 1915(b) waiver program,
which required Medicaid beneficiaries to enroll in managed care plans. The program has two
components: physical health and behavioral health. The State agency contracts directly with 11

1
    Pennsylvania’s State FY begins on July 1st and ends on June 30th.
2
 Pennsylvania officials said that they expected to collect $657,671,550 in Gross Receipts Tax revenue in
State FY 2012–2013.


Pennsylvania’s Gross Receipts Tax on Medicaid Managed Care Organizations (A-03-13-00201)                   1
MCOs for physical health services, such as hospital and physician services, and pays each of
these Medicaid MCOs a monthly capitation payment for each enrolled beneficiary. For
behavioral health services, the State agency contracts with 34 risk-bearing entities: 32 county
governments and 2 private entities.

Health-Care-Related Taxes

Within certain limits, States are permitted to use revenues from health-care-related taxes to
finance the State’s share of Medicaid expenditures. 3 Health-care-related taxes:

       •   may be imposed on 19 permissible classes of health care services, including services of
           MCOs;

       •   must be broad based, or apply to all services within a class;

       •   must be imposed at a uniform rate for all services within a class; and

       •   must not allow arrangements that return the collected taxes directly or indirectly to the
           taxpayer (hold harmless arrangements).

Federal regulations permit a “safe harbor” from the indirect guarantee hold harmless requirement
for health-care-related taxes that do not exceed a 6.0 percent tax rate. Between January 1, 2008,
and September 30, 2011, Congress lowered the tax rate to 5.5 percent. After September 30,
2011, the safe harbor tax rate increased to 6.0 percent. 4

Before 2005, some States, including Pennsylvania, created health care taxes limited to Medicaid
MCOs, excluding other MCOs and service providers from the tax. Section 6051 of the Deficit
Reduction Act of 2005 revised section 1903(w)(7)(viii) of the Act to redefine this permissible
class as services of MCOs (but not limited to Medicaid MCOs). 5 This provision modified the
definition of a broad-based tax for this class of provider and was implemented on October 1,
2009. 6 After October 1, 2009, such taxes had to apply to all MCOs.




3
  Section 1903(w) of the Act permits use of revenues from certain health-care-related taxes. The implementing
regulations for section 1903(w) can be found at 42 CFR part 433, subpart B.
4
    42 CFR § 433.68(f)(3)(i)(A).
5
 The amended section 1903(w)(7)(A)(viii) says that MCOs as a class include “health maintenance organizations,
preferred provider organizations, and such other similar organizations as the Secretary may specify by regulation.”
6
    74 Fed. Reg. 31196, 31197 (June 30, 2009).



Pennsylvania’s Gross Receipts Tax on Medicaid Managed Care Organizations (A-03-13-00201)                       2
Pennsylvania’s Taxes on Medicaid Managed Care Organizations

In July 2004, Pennsylvania implemented a 6-percent health-care-related tax limited to the
revenue of Medicaid MCOs. 7 In September 2009, anticipating the implementation of the
provisions of the Deficit Reduction Act described above, Pennsylvania discontinued that tax. To
replace the unallowable health-care-related tax, Pennsylvania looked to its Gross Receipts Tax.
Originating in 1864, Pennsylvania’s Gross Receipts Tax was levied on services provided by
electric companies, telecommunications companies, transportation entities, and private bankers.
Effective October 1, 2009, Pennsylvania established a Gross Receipts Tax on MCOs but limited
the tax to gross receipts only “from payments pursuant to a Medicaid managed care contract with
the Department of Public Welfare.” 8

Pennsylvania Act 48-2009 established a Gross Receipts Tax of 5.9 percent on MCO revenue
from Medicaid services. The Pennsylvania law states that the revenues collected will be placed
in a restricted receipts account to augment its capitation appropriation.

Pennsylvania’s analysis in support of Pennsylvania Act 48-2009 described the MCOs covered by
the new law: “…these are the same managed care organizations that paid the recently terminated
assessment.” 9 The analysis discussed the effect of the tax, stating that the State will be “making
supplemental payments to the Medicaid MCOs that equals the gross receipts tax paid by the
MCOs and then seeking [F]ederal reimbursement for the supplemental payments.” Further, the
analysis specified that the supplemental payment would be incorporated into the monthly rate
that the State agency paid the MCOs.

The Gross Receipts Tax provision of Pennsylvania’s Medicaid MCO Agreement requires that
Medicaid MCOs pay the Gross Receipts Tax and states that the State agency “will abide by the
Rate Setting Methodology outlined ….” The agreement provides an overview of the rate setting
methodology and states that “[t]he administrative/profit load is applied as a percentage of the
total capitation rate (e.g. percentage of premium) and does not vary by population.” 10 When
computing the capitation rates, the State agency’s actuarial firm did not include the supplemental
payment for the Gross Receipts Tax in the cost of services against which it applied actuarial




7
 Public Welfare Code—Medicaid Managed Care Organization Assessments and Intermediate Care Facilities for
Mentally Retarded Persons Assessment (Pennsylvania P.L. 528, No. 69, July 4, 2004).
8
 “Managed Care Organizations,” section 1101(b)(1) of the Tax Reform Code of 1971—Omnibus Amendments
(Pennsylvania P.L. 451, No. 48, Oct. 9, 2009) (Pennsylvania Act 48-2009).
9
 Pennsylvania House Committee on Appropriations, Fiscal Notes, House Bill 1531 [enacted as Pennsylvania Act
48-2009], October 7, 2009.
10
  Appendix 6, “Gross Receipts Tax,” Lehigh/Capital, Southeast and Southwest Zones, October 1, 2009, and as
amended January 27, 2010, HealthChoices Behavioral Health Agreement Between Commonwealth of Pennsylvania
and Allegheny County. This agreement was representative of agreements with other Medicaid MCOs.



Pennsylvania’s Gross Receipts Tax on Medicaid Managed Care Organizations (A-03-13-00201)                3
adjustments but added the full amount of the tax, including the surcharge when applicable, as a
separate load in the rates. 11

As payers of the Gross Receipts Tax, Medicaid MCOs also became subject to Pennsylvania’s
Public Utility Realty Tax Act surcharge, which was based on revenues subject to the Gross
Receipts Tax. Each year, Pennsylvania calculated the surcharge, if any, for the upcoming
calendar year. 12 For calendar year 2011, Pennsylvania posted a surcharge of 0.16 percent of
revenues taxed under the Gross Receipts Tax, which affected taxes paid in State FYs 2010–2011
and 2011–2012. 13 Surcharge revenues were also placed in the restricted receipts account.

Including the surcharge, Pennsylvania collected $1,758,155,583 in Gross Receipts Tax revenue
from its Medicaid MCOs from State FYs 2009–2010 through 2011–2012 (the audit period).
MCOs in Pennsylvania that did not provide Medicaid services did not pay any Gross Receipts
Tax.

HOW WE CONDUCTED THIS REVIEW

Our review covered $1,758,155,583 in Gross Receipts Taxes that Pennsylvania collected from its
Medicaid MCOs during the audit period. This amount included a $15,660,507 Public Utility
Realty Tax Act surcharge. In this report, we refer to the Gross Receipts Tax and its associated
surcharge as the Gross Receipts Tax. We analyzed the Federal and State requirements governing
health-care-related taxes and how those requirements related to the Pennsylvania Gross Receipts
Tax on Medicaid MCOs.

We conducted this performance audit in accordance with generally accepted government
auditing requirements. Those requirements require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our audit scope and methodology.

                                                     FINDING

Pennsylvania’s Gross Receipts Tax on Medicaid MCOs appears to be a health-care-related tax
that is impermissible for Medicaid funding. Through the Gross Receipts Tax, Pennsylvania
11
  The load for a State tax is calculated as a percentage of the total capitation payment after it has been “loaded” for
administrative costs and agreed-upon profit margins (Medicaid Rate Setting 101: Capitation Rate Development
Process and Considerations, American Academy of Actuaries, June 16, 2011). (A load is generally a percentage of
the service costs added to capitation payments to account for the MCO’s administrative costs and profit margins.)
12
  “Surcharge,” section 1111-A of the Tax Reform Code of 1971—Omnibus Amendments (Pennsylvania P.L. 559,
No. 89, June 29, 2002). Pennsylvania levied the surcharge on revenues subject to the Gross Receipts Tax when
refunds for Public Utility Realty Tax appeals exceeded the limit specified in the Tax Reform Code.
13
  Volume 40, Pa. Bulletin, p. 7304 (Dec. 18, 2010). The State agency’s actuarial firm adjusted the capitation rates
to include payment for the increased tax.



Pennsylvania’s Gross Receipts Tax on Medicaid Managed Care Organizations (A-03-13-00201)                          4
collected tax revenues of $1,758,155,583 from its Medicaid MCOs during the audit period and
applied those revenues to reduce its share of HealthChoices Medicaid managed care costs.
Pennsylvania included in its capitation rates a supplemental payment to cover the Medicaid
MCOs’ cost of the Gross Receipts Tax. We calculate that Pennsylvania reimbursed Medicaid
MCOs $1,603,980,052 for the Gross Receipts Tax.14

Pennsylvania’s Gross Receipts Tax on MCOs appears to be a health-care-related tax under the
definition established in the Federal regulations. That is, the tax appears to be an assessment on
health care items or services, specifically the health care services provided by MCOs. If the tax
is determined to be health-care-related, it is impermissible because it is not broad based (the
Gross Receipts Tax does not apply to all MCOs) and because it holds the Medicaid MCOs
harmless as taxpayers (the State agency includes the cost of the Gross Receipts Tax as a
supplemental payment in the capitation payments to Medicaid MCOs).

Under Medicaid rules, revenues from an impermissible health-care-related tax may not be used
to finance the State’s share of Medicaid expenditures. However, using revenues from this tax,
Pennsylvania lowered its share of MCO capitation payments and increased the Federal share.
During our audit period, the Federal Government paid $981,337,949 for supplemental capitation
payments designated to hold the Medicaid MCOs harmless. The MCOs received $1,603,980,052
in supplemental capitation payments to reimburse them for the Gross Receipts Tax, and
Pennsylvania retained $1,135,513,480 of Gross Receipts Tax revenues in its Medicaid MCO
fund. No additional services were provided and no additional beneficiaries were served with the
proceeds from the Gross Receipts Tax.

FEDERAL AND STATE REQUIREMENTS

Section 1903(w) of the Act allows States to impose health-care-related taxes on various classes
of health care services. Federal regulations clarify that a health-care-related tax is a licensing
fee, assessment, or other mandatory payment that is related to (1) health care items or services;
(2) the provision of, or the authority to provide, the health care services; or (3) the payment for
the health care services or if the tax is not limited to health care items or services it is considered
health-care-related if the tax treatment of health care providers is different from the tax treatment
of other individuals or entities (42 CFR § 433.55). States must reduce their claims for Federal
reimbursement by the revenues collected from health-care-related taxes unless those taxes meet
the requirements for an exception as a permissible tax (section 1903(w)(1)(A)).

Federal regulations specify the conditions under which a health-care-related tax will be
permissible. The tax may be permissible if it is broad based, or is applied to all services within a
class; is uniform, so that all payers of the tax pay at the same rate; and avoids hold harmless
arrangements by which collected taxes are returned directly or indirectly to the taxpayers
(42 CFR § 433.68).

14
  We based our calculation of the reimbursement amount for the Gross Receipts Tax on the total capitation
payments claimed for Federal reimbursement during our audit period. Because the tax payment schedule differed
from the capitation payment schedule and the State agency’s claims for the costs of the capitation payments also
differed from the tax and capitation schedules, the amounts of tax collected do not exactly match the amounts of the
supplemental capitation payments.


Pennsylvania’s Gross Receipts Tax on Medicaid Managed Care Organizations (A-03-13-00201)                       5
The Act and implementing regulations include MCO services as one of the specified classes of
health care services on which States may impose a health-care-related tax. Section 6051 of the
Deficit Reduction Act of 2005 revised section 1903(w)(7)(A)(viii) of the Act to redefine this
permissible class as services of MCOs (but not limited to Medicaid MCOs). This provision
modified the definition of a broad-based tax for this class of provider.

Pennsylvania Act 48-2009 established a Gross Receipts Tax of 5.9 percent on MCO revenue
from Medicaid services; as defined, not all MCOs are subject to the tax.

Appendix B contains Federal and State requirements related to health-care-related taxes.

PENNSYLVANIA’S TAX ON MEDICAID MANAGED CARE ORGANIZATIONS
APPEARS TO BE AN IMPERMISSIBLE HEALTH-CARE-RELATED TAX

During the audit period, Pennsylvania appears to have used an impermissible health-care-related
tax to collect revenues of $1,758,155,583 from its Medicaid MCOs. Pennsylvania applied those
revenues to reduce its share of Medicaid expenditures.

Pennsylvania’s Tax on Medicaid Managed Care Organizations Appears To Be a
Health-Care-Related Tax

Pennsylvania’s tax on MCOs appears to be a health-care-related tax under the definition
established in the Federal regulations. The tax appears to be an assessment on health care items
or services, specifically the health care services provided by MCOs.

Pennsylvania Act 48-2009 defined the Gross Receipts Tax on Medicaid MCOs as 5.9 percent of
“the gross receipts received from payments pursuant to a Medicaid managed care contract with
the Department of Public Welfare through its Medical Assistance Program under Subchapter
XIX of the Social Security Act.” 15

In addition, the tax appears to be a health-care-related tax because Pennsylvania treats the MCO
Gross Receipts Tax differently. Other industries pay gross receipts taxes at different tax rates.
For example, telecommunication companies and transportation companies pay a Gross Receipts
Tax of 5 percent, and private bankers pay 1 percent, whereas electric companies and Medicaid
MCOs pay 5.9 percent. 16 Further, Pennsylvania deposits gross receipts taxes collected from
these other industries into the General Fund without restrictions. Gross receipts taxes on
Medicaid MCOs are placed in a restricted Medicaid fund.




15
     Section 1101(b)(1) of Pennsylvania Act 48-2009.
16
  Pennsylvania Department of Revenue, “Gross Receipts Tax.” Accessed on December 20, 2012, at
http://www.portal.state.pa.us/portal/server.pt/community/gross receipts tax/14426. In some years, the Gross
Receipts Tax is augmented by an associated surcharge that increases the total amount of taxes paid.



Pennsylvania’s Gross Receipts Tax on Medicaid Managed Care Organizations (A-03-13-00201)                      6
If It Is Health Care Related, Pennsylvania’s Gross Receipts Tax on Medicaid Managed
Care Organizations Is Impermissible

A health-care-related tax may be used to pay the State’s share of Medicaid expenditures only if it
meets the requirements for an exception as a permissible tax. However, Pennsylvania’s Gross
Receipts Tax on Medicaid MCOs does not meet those requirements. The Gross Receipts Tax on
Medicaid MCOs is not broad based, and the Medicaid MCOs are held harmless for the tax
payments.

Gross Receipts Tax Is Not Broad Based

The Gross Receipts Tax on Medicaid MCOs does not meet the requirement for a broad-based
health-care-related tax. When a State chooses a class of health-care-related services to tax, it
must tax all services that fall into that class. In this case, the class is defined by the regulation as
services of MCOs (42 CFR 433.56). However, Pennsylvania taxes only Medicaid MCOs. In
2013, for example, 30 MCOs provided physical health services in Pennsylvania, of which 11
were contracted to provide Medicaid services. Only the 11 were required to pay the health-care-
related tax, and the tax was only on gross revenues for Medicaid services. The remaining 19
MCOs were exempt from the Gross Receipts Tax because they did not provide Medicaid
services.

Gross Receipts Tax Holds Medicaid Managed Care Organizations Harmless
Pennsylvania did not comply with the requirement that the Medicaid MCOs not be held
harmless. Pennsylvania’s analysis of the effect of its Gross Receipts Tax on Medicaid MCOs
states that the State will be “making supplemental payments to the Medicaid MCOs that equals
the gross receipts tax paid by the MCOs and then seeking [F]ederal reimbursement for the
supplemental payments [sic].” This analysis demonstrates the State’s intent to hold the Medicaid
MCOs harmless in the Gross Receipts Tax.

The regulation (42 CFR 433.68(f)(3)(i)) provides a two-prong test to determine whether
taxpayers have been held harmless through an indirect guarantee that funds will be returned.
Under the first prong, no indirect guarantee would exist (the regulation provides a safe harbor) if
the tax (or taxes) represented 5.5 percent or less of the taxpayer’s revenues from the taxed class
of services. 17 If the tax rate exceeds the safe harbor percentages, then under the second prong a
hold harmless provision would exist if 75 percent or more of the taxpayers in the class receive
75 percent or more of their total tax costs back in enhanced Medicaid payments.

Pennsylvania did not achieve the safe harbor during our audit period because its health-care-
related taxes exceeded 5.5 percent (or 6.0 percent for State FY 2011–2012). The Gross Receipts
Tax for Medicaid MCOs is 5.9 percent. Pennsylvania increased the tax on Medicaid MCOs by a
Public Utility Realty Tax Act surcharge of 0.16 percent of taxable revenues for calendar year

17
  Between January 1, 2008, and September 30, 2011, the indirect guarantee safe harbor applied to a tax rate of
5.5 percent or less. Effective October 1, 2011, the tax rate to which the safe harbor applied became 6.0 percent or
less (42 CFR § 433.68(f)(3)(i)(A)).



Pennsylvania’s Gross Receipts Tax on Medicaid Managed Care Organizations (A-03-13-00201)                        7
2011, bringing the health-care-related taxes on Medicaid MCOs above 6.0 percent for State FYs
2010–2011 and 2011–2012. 18

Pennsylvania also did not meet the requirements of the second prong of the hold harmless test.
That is, 75 percent or more of the taxpayers in the class were held harmless under the Gross
Receipts Tax imposed by Pennsylvania Act 48-2009 for 75 percent or more of the Gross
Receipts Tax they paid. Actuarial reports show that the supplemental capitation payments were
calculated as a separate load of 5.9 percent of total capitation payments. This load was not
subject to actuarial adjustment and reimbursed Medicaid MCOs for the Gross Receipts Tax in its
entirety. In 2011, the load for the Gross Receipts Tax was revised to include payment for the
surcharge (6.06 percent). 19 All of the Medicaid MCOs received the capitation payments. As
shown in the table below, in all years, the offset payments well exceeded the 75-percent
threshold and thus violated the hold harmless limitation. 20
                     Table 1: Offset Payments Exceeded the 75-Percent Threshold

                                                           Capitation Payments
                                 Medicaid MCO                                              Percent of Tax
                                                           To Offset Medicaid
           State FY             Gross Receipts Tax                                        Received as Offset
                                                           MCO Gross Receipts
                                      Costs                                              Capitation Payments
                                                                Tax Costs
          2009–2010                 $533,936,161               $491,305,502                    92.0 percent
          2010–2011                 $581,452,384                 $554,855,716                  95.4 percent
          2011–2012                 $642,767,038                 $557,818,834                  86.8 percent
             Total               $1,758,155,583                $1,603,980,052

For example, our audit shows that, for State FY 2011–2012, Pennsylvania collected
$642,767,038 in Gross Receipts Taxes from Medicaid MCOs. The DPW [State Agency] Budget
Request for FY 2011–2012 estimated a need of $639,161,594 for supplemental capitation
payments to cover the Medicaid MCOs’ costs of the tax for that period. 21

The collections and payments shown in this report are not equal because of lags between
collecting the Gross Receipts Tax and paying the MCOs for their cost of the tax. Because of the
timing issues related to collecting the tax and making the payments, the taxes collected do not



18
     Pennsylvania discontinued this surcharge after our audit period.
19
 Note, HealthChoices Physical Health State Fiscal Year 2011–2012 Rate Development and Certification,
October 2011.
20
  Because we were unable to determine the exact amount for which the factor for the surcharge was applicable, we
calculated all offset capitation payments at 5.9 percent. Therefore, the table may understate the offset payments for
State FY 2011–2012.
21
     Fiscal Year 2011–2012 Governor’s Executive Budget: Capitation Estimated Payments for 2011–2012, p. 138.



Pennsylvania’s Gross Receipts Tax on Medicaid Managed Care Organizations (A-03-13-00201)                        8
equal the supplemental capitation payments made to cover the tax during our audit period. 22 We
therefore calculated the amount of the capitation payments for the Gross Receipts Tax using the
amount of the unadjusted load included in the rates. During the audit period, we calculated that
Pennsylvania paid $1,603,980,052 in supplemental capitation payments to reimburse MCOs for
their Gross Receipts Tax costs.

PENNSYLVANIA COLLECTED TAXES OF $1.76 BILLION FROM MEDICAID
MANAGED CARE ORGANIZATIONS AND USED THAT MONEY TO PAY SOME OF
ITS SHARE OF CAPITATION PAYMENTS

During our audit period, Pennsylvania collected Gross Receipts Taxes of $1,758,155,583 from
its Medicaid MCOs and paid $1,603,980,052 in supplemental capitation payments designated to
cover the tax. Pennsylvania used $622,642,103 of the collected taxes to cover its share of the
supplemental capitation payments and retained $1,135,513,480 in its Medicaid fund to pay its
share of the HealthChoices Medicaid managed care program. The Federal Government paid
$981,337,949 for the supplemental capitation payments designated to hold the Medicaid MCOs
harmless in the Gross Receipts Tax. No additional services were provided and no additional
beneficiaries were served with the proceeds from the Gross Receipts Tax.

The following table demonstrates the financial effect of Pennsylvania’s tax.

                           Table 2: Financial Effect of Pennsylvania’s Tax
                          State Fiscal Years 2009–2010 Through 2011–2012

                                        MCOs                     Pennsylvania                      CMS

     Gross Receipts Tax           ($1,758,155,583)              $1,758,155,583
    Supplemental
                                   $1,603,980,052               ($622,642,103)               ($981,337,949)
 Capitation Payments
     Net Financial Effect          ($154,175,531)               $1,135,513,480               ($981,337,949)

CMS SHOULD OFFSET STATE REVENUE FROM IMPERMISSIBLE
HEALTH-CARE-RELATED TAXES

States may not use revenues raised through an impermissible health-care-related tax to help
finance their share of Medicaid expenditures. Further, when a health-care-related tax is
determined to be impermissible, CMS should offset the total amount of the taxpayer revenues


22
  The Medicaid Agreement, Appendix 6, indicates the date that Gross Receipts Taxes are due and provides the
schedule for adjusting future capitation payments to the Medicaid MCOs to repay the full amount of the MCO tax
collected. Because the schedules of collections and payment differ from each other and from the filing date of the
claim for Federal reimbursement, the amounts of tax collected that we show in this report do not exactly match our
calculation of the supplemental capitation payments.



Pennsylvania’s Gross Receipts Tax on Medicaid Managed Care Organizations (A-03-13-00201)                      9
received by a State from medical assistance expenditures when determining the Federal share of
State expenditures (42 CFR § 433.57).

                                      RECOMMENDATIONS

We recommend that CMS:

    •   determine whether the tax on Medicaid MCOs is an impermissible health-care-related tax
        and, if so,

            o offset $1,758,155,583 in Gross Receipts Tax revenue from State Medicaid
              expenditures: $533,936,161 from State FY 2009–2010, $581,452,384 from State
              FY 2010–2011, and $642,767,038 from State FY 2011–2012 and

            o offset Gross Receipts Tax revenue from Medicaid expenditures when determining
              the Federal share of Pennsylvania’s Medicaid program expenditures for periods
              after State FY 2011-2012; and

    •   clarify its policy concerning permissible health-care-related taxes with all States.

     STATE AGENCY AND CENTERS FOR MEDICARE & MEDICAID SERVICES
        COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

STATE AGENCY COMMENTS

In its comments on our draft report, the State agency said that it did not agree with our finding or
our recommendations to offset Gross Receipts Tax revenue from State Medicaid expenditures.
The State agency said that the Gross Receipts Tax on Medicaid MCOs is not a health-care-
related tax because the taxes it collected from Medicaid MCOs did not constitute more than
85 percent of all Gross Receipts Tax revenue and because the Medicaid MCOs are not treated
differently from other taxpayers. The State agency said that, although the Gross Receipts Tax on
Medicaid revenue of MCOs was not a health-care-related tax, it would have been permissible
because the hold harmless provision does not prevent the use of the tax to reimburse health care
providers for their expenditures. The State agency said that CMS had full knowledge that
Pennsylvania extended its Gross Receipts Tax to Medicaid MCOs as a revenue source for the
State share in claiming Federal matching funds for its Medicaid program. However, the State
agency supported the recommendation that CMS clarify the Federal requirements for health-
care-related taxes.

The State agency’s comments are included in their entirety as Appendix C.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

CMS agreed with our recommendation that it clarify its policy concerning impermissible health-
care-related taxes. CMS also said that it “agrees that, based upon the information presented in
OIG’s report, it appears that the portion of the gross receipts tax imposed on Medicaid MCOs



Pennsylvania’s Gross Receipts Tax on Medicaid Managed Care Organizations (A-03-13-00201)       10
may be considered a health-care related tax.” CMS said that, if it determines that the Gross
Receipts Tax is an impermissible health-care-related tax, it will work with Pennsylvania to
develop an approvable tax structure. However, because it has not issued subregulatory guidance
to explain this position, CMS did not agree that a disallowance is warranted until the States have
clear notice of its interpretation of the health-care-related tax requirements.
CMS included several technical suggestions in its comments, which we have addressed as
appropriate. CMS’s comments, excluding technical comments, are included as Appendix D.

OFFICE OF INSPECTOR GENERAL RESPONSE

The State agency’s comments incorrectly interpreted the provision to mean that a tax is health
care related only if 85 percent of the tax burden falls on health care providers. If less than
85 percent of the burden falls on health care providers, a tax may still be considered a
health-care-related tax if it treats health care providers differently from other entities.

We agree with CMS that notice of its interpretation of the statute and regulations is necessary
and encourage CMS to provide clarification as soon as possible. Failure to do so will allow
additional States to implement tax programs similar to Pennsylvania’s Gross Receipts Tax to
obtain additional Federal funds. A proliferation of such tax programs could have a harmful
impact on the Medicaid program.




Pennsylvania’s Gross Receipts Tax on Medicaid Managed Care Organizations (A-03-13-00201)     11
                     APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

During the audit period, Pennsylvania collected $1,758,155,583 in gross receipts taxes from its
Medicaid MCOs. This includes a $15,660,507 Public Utility Realty Tax Act surcharge on
revenues subject to the Gross Receipts Tax. Our review was based on an analysis of the Federal
and State requirements and applying those requirements to the Pennsylvania Gross Receipts Tax
on MCOs.

We did not review the overall internal control structure of the State agency or the Medicaid
program. Rather, we reviewed only those internal controls related to our objective. We limited
our review to determining whether Pennsylvania’s Gross Receipts Tax on MCOs is a permissible
health care tax. We did not extend our review to any other health care program in Pennsylvania.

We conducted our audit from May 2012 to April 2013 and performed our fieldwork at the State
agency’s office in Harrisburg, Pennsylvania, and at the CMS offices in Baltimore, Maryland.

METHODOLOGY

To accomplish our objective, we:

     •   reviewed applicable Federal statutes and regulations on provider health care taxes;

     •   reviewed Pennsylvania’s statutes implementing taxes on Medicaid MCOs;

     •   reviewed Pennsylvania’s analysis, explanatory materials, and sample actuarial reports
         providing the basis for the capitation payment rates for Medicaid MCOs;

     •   reviewed an executed MCO agreement with the State agency;

     •   reviewed data provided by the State agency concerning MCO Gross Receipts Tax
         payments for the audit period;

     •   reviewed Pennsylvania’s State budget documentation for Gross Receipts Tax revenues
         and Medicaid MCO capitation payments;

     •   estimated supplemental capitation payments made to Medicaid MCOs to offset their
         gross receipts tax payments by multiplying total capitation payments claimed by
         Pennsylvania on Form CMS-64 by 5.9 percent, the rate identified in the Pennsylvania
         HealthChoices capitation rate proposals; 23



23
  States may include in their capitation rates the cost of permissible taxes, including permissible health-care-related
taxes. Pennsylvania included the cost of its Gross Receipts Tax in its proposed capitation rates for Medicaid MCOs.


Pennsylvania’s Gross Receipts Tax on Medicaid Managed Care Organizations (A-03-13-00201)                        12
    •   held discussions with State agency officials to gain an understanding of the operation of
        Pennsylvania’s Gross Receipts Tax program;

    •   held discussions with CMS officials concerning health-care-related taxes; and

    •   met with CMS and Pennsylvania officials to discuss our findings and recommendations.

We conducted this performance audit in accordance with generally accepted government
auditing requirements. Those requirements require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Pennsylvania’s Gross Receipts Tax on Medicaid Managed Care Organizations (A-03-13-00201)     13
                 APPENDIX B: FEDERAL AND STATE REQUIREMENTS

FEDERAL LAWS AND REGULATIONS

Permissible Health-Care-Related Taxes and the Services They Cover

The Medicaid Voluntary Contribution and Provider Specific Tax Amendments of 1991 amended
the Act by adding section 1903(w), relating to permissible donations and health-care-related
provider taxes. Section 1903(w) allows provider taxes as long as they:

    •   are imposed on a permissible class of health care services;

    •   are broad based, or applied to all providers within a class;

    •   are uniform in that all providers are taxed at the same rate;

    •   do not exceed 25 percent of the non-Federal share of Medicaid expenditures; and

    •   avoid hold harmless arrangements by which collected taxes are returned directly or
        indirectly to taxpayers.

Section 1903(w)(7)(A) defined classes of services on which States might levy health-related
taxes, including “Services of health maintenance organizations (and other organizations with
contracts under section 1903(m)).” Section 1903(m) of the Act identifies Medicaid MCOs.
Section 6051 of The Deficit Reduction Act of 2005 amended section 1903(w)(7)(A)(viii) of the
Act to redefine this permissible class of health care services as “Services of managed care
organizations (including health maintenance organizations, preferred provider organizations, and
such other similar organizations as the Secretary may specify by regulation).” The revised
provision did not limit the class of service to Medicaid MCOs. During our audit period, the
implementing regulations listed 19 classes of taxable health care services (42 CFR § 433.56).

A tax is considered a health-care-related tax if certain conditions found in section
1903(w)(3)(A) of the Act and its implementing regulations are met.

As clarified in the Federal regulations, a health-care-related tax is a licensing fee,
assessment, or other mandatory payment that is related to (1) health care items or
services; (2) the provision of, or the authority to provide, the health care services; or
(3) the payment for the health care services (42 CFR § 55(a)). A tax is considered to be
health care related if the tax is not limited to health care items or services, but the
treatment of individuals or entities providing or paying for those health care items or
services is different from the tax treatment provided to other individuals or entities
(42 CFR § 433.55(c)).




Pennsylvania’s Gross Receipts Tax on Medicaid Managed Care Organizations (A-03-13-00201)     14
Requirements for Health-Care-Related Taxes

A State may receive health-care-related taxes without receiving a reduction in its Federal share
provided that the tax meets the requirements of section 1903(w) of the Act. In particular, the tax
must be broad based; must be uniformly imposed; must be applied to the providers, items, or
services within a class to be taxed as described above; and must avoid hold harmless clauses.
The tax is broad based if it is imposed on all health care items or services in the class or
imposed on providers of such items or services furnished by all non-Federal, nonpublic
providers in the State (42 CFR § 433.68(c)). The tax is considered uniformly imposed if
it is imposed on the same services and is applied at the same rate for all payers of the tax.
The tax is not considered uniformly imposed if it is not redistributive, for example, if the
amount of tax directly correlates to payments under Medicaid (42 CFR § 433.68(d)).

Federal regulations specify in detail the limitations relating to hold harmless provisions. An
indirect guarantee will be determined to exist under a two prong “guarantee” test. If the tax or
taxes produce revenues for the State that are below a specified limit, the taxes will be considered
permissible for the purpose of the hold harmless provision. Between January 1, 2008, and
September 30, 2011, this safe harbor limit was 5.5 percent of the provider revenues. After
September 30, 2011, the safe harbor limit reverted to 6 percent or less of these revenues (42 CFR
§ 433.68(f))(3)(i)(A).

If the tax does not fall within the indirect guarantee, or safe harbor, a second test for indirect hold
harmless provisions applies to all health care taxes applied to each class. CMS will consider an
indirect hold harmless provision to exist if 75 percent of the taxpayers in the class receive 75
percent or more of their total tax back in enhanced Medicaid payments or other State payments
(42 CFR § 433.68(f)(3)(i)(B).

CMS may waive the broad-based and uniform tax requirements if the tax is deemed generally
redistributive but may not waive the hold harmless requirement (42 CFR § 433.72).

PENNSYLVANIA LAWS
Regarding the taxation of Medicaid MCOs, Pennsylvania Act 48-2009, section 1101(b.1),
“Imposition of Tax, Managed Care Organizations,” states:

        Every managed care organization now or hereafter incorporated or organized by
        or under any law of the Commonwealth or a political subdivision thereof, or now
        or hereafter organized or incorporated by any other state or by the United States
        or any foreign government and doing business in this Commonwealth that is a
        party to a Medicaid managed care contract with the Department of Public Welfare
        shall pay to the State Treasurer, through the Department of Revenue, a tax of 59
        mills upon each dollar of the gross receipts received from payments pursuant to a
        Medicaid managed care contract with the Department of Public Welfare through
        its Medical Assistance Program under Subchapter XIX of the Social Security Act
        (49 Stat. 620, 42 U.S.C. § 1396 et seq.). This subsection shall also apply to a
        Medicaid managed care organization, as defined in section 1903(m)(1)(A) of the


Pennsylvania’s Gross Receipts Tax on Medicaid Managed Care Organizations (A-03-13-00201)         15
           Social Security Act (42 U.S.C. § 1396b(m)(1)(A)); to a county Medicaid managed
           care organization; and to a permitted assignee of a Medicaid managed care
           contract. This subsection shall not apply to an assignor of a Medicaid managed
           care contract. The revenue collected under this subsection shall be placed in a
           restricted receipts account in the General Fund and is appropriated as an
           augmentation to the capitation appropriation of the Department of Public Welfare.
           If the Centers for Medicare and Medicaid Services of the Department of Health
           and Human Services issues a written determination of a deferral, disallowance or
           disapproval of Federal financial participation on the grounds that the tax imposed
           under this subsection constitutes an impermissible health-care-related tax under
           Subchapter XIX of the Social Security Act, the Secretary of Public Welfare shall
           notify the Secretary of Revenue of that determination. If notification is made
           under this paragraph, the tax under this subsection shall cease to be imposed after
           the last day of the month in which notification is made.

Section 1111-A of the Tax Reform Code of 1971—“Surcharge” (Omnibus Amendments
(Pennsylvania P.L. 559, No. 89, June 29, 2002), established a Public Utility Realty Tax Act
surcharge to be calculated by the State each year. Section 1111-A(c) states that “for the fiscal
year, each entity subject to the tax imposed by section 1101 [see above] shall pay to the
Commonwealth a surcharge upon each dollar of the gross receipts required to be reported under
section 1101 ….” Gross receipts of providers of certain telecommunications services are
excepted from the tax. Section 1111-A(d) specifies that, in years for which a surcharge is
imposed, the State will publish the surcharge rate in the Pennsylvania Bulletin. For calendar
year 2011, Pennsylvania published a surcharge tax rate of 0.16 percent. 24




24
     Volume 40, Pa. Bulletin, p. 7304 (Dec. 18, 2010).



Pennsylvania’s Gross Receipts Tax on Medicaid Managed Care Organizations (A-03-13-00201)         16
                          APPENDIX C: STATE AGENCY COMMENTS 





                                                COMMONWEALTH OF PENNSYLVANIA
                                            DEPARTMENT OF PUBLIC WELFARE

                                                     January 22, 2014

             Stephen Virbitsky
             Regional Inspector General for Audit Services
             Department of Health and Human Services
             Office of Inspector General
             Office of Audit Services, Region Ill
             Public Ledger Building, Suite 316
             150 S. Independence Mall West
             Philadelphia, Pennsylvania 19106

             Dear Mr. Virbitsky:

                   The Department of Public Welfare (DPVV) has reviewed the draft Report Number
             A-03-13-00201, titled, "Pennsylvania's Gross Receipts Tax on Medicaid Managed Care
             Organizations Is an Impermissible Health-Care-Related Tax". According to the draft
             Report, the objective of this audit was to determine if the Gross Receipts Tax is a
             permissible health care-related tax under Federal requirements.

                   DPW notes that you have asked CMS to comment on the "validity of the facts
             and reasonableness of the recommendations in the report." You have also offered
             DPW the opportunity to respond to the draft Report.

                    DPW reviewed and disagrees with the conclusions and recommendations
             included in the draft Report. As explained below, Pennsylvania's Gross Receipts Tax is
             not a health care-related tax as defined in federal law. Further, given that CMS was fully
             informed of Pennsylvania's Gross Receipts Tax, before and after it was enacted, and
             approved Pennsylvania's managed care contracts and capitation payments recognizing
             and reimbursing the tax cost, it would be entirely unreasonable for CMS to retroactively
             deny the Commonwealth nearly $1 billion in federal matching funds for prior fiscal
             periods or take any other measures to disrupt this legitimate funding source going
             forward . Finally, DPW also question certain factual findings included in the draft Report,
             which are identified below.

             Office of Inspector General (OIG) Recommendation: We recommend that CMS
             offset $1,758,155,583 in Gross Receipts Tax revenue from State Medicaid
             expenditures: $533,936,161 from State FY 2009-2010, $581,452,384 from State Fiscal
             YY 2010-2011, and $642, 767,038 from State FY 2011-2012.

             OIG Recommendation: We recommend that CMS offset Gross Receipts Tax
             revenue from Medicaid expenditures when determining the Federal share of
             Pennsylvania's Medicaid program expenditures for periods after State FY 2011­
             2012.




                                                   OFFICE OF THE SECRETARY

                   P.O. BOX 2675, HARRISBURG, PA 17105   I   717.787.2600/3600 FAX:717 .772.2062   I   www.dpw.state.pa.us




P ennsylvania 's Gross Receipts Tax on Medicaid M anaged Care Organizations (A -03-13-002 01)                                17
             Stephen Virbitsky 	                                - 2­

             De partment of Publi c We lfare (DPW) Response:
             OIG's recommendations are based upon its conclusion that Pennsylvania's Gross
             Receipts Tax is an impermissible health care-related tax. OIG's conclusion is incorrect
             and its proposed sanction is unreasonable and unjust for the fo llowing reasons:

             I. 	 Pennsylvania's Gross Receipts Tax is Not a Health Care Related Tax under Federal
                  Law.

                A health care-related tax is defined in § 1903(w)(3)(A) of the Social Security Act as a
                tax that:

                (i) 	 is related to health care items or services, or to the provision of, the 

                      authority to provide, or payment for, such items or services, or 


                (ii) is not limited to such items or services but provides for treatment of
                     individuals or entities that are providing or paying for such items or
                     services that is different from the treatment provided to other individuals or
                     entities.

                Section 1903(w)(3) further specifies that, for purposes of subsection (i), "a tax
                is considered to relate to health care items or services if at least 85 percent of
                the burden of such tax falls on health care providers." 42 USC
                1396b(w)(3)(A).

                As noted in the draft Report, Pennsylvania's Gross Receipts Tax (GRT), 

                which was first enacted in 1864, taxes the gross receipts of pipeline, conduit, 

                steamboat, cana l, slack water navigation, and transportation compan ies; 

                te lephone, telegraph, and mobile telecommunications companies; electric 

                light, water power, and hydroelectric companies; express companies; palace 

                car and sleeping car companies; freight and oil transportation companies, 

                private banks and, since 2009, managed care organizations (MCOs) . The 

                OIG concluded that the GRT became a health care-related tax when it was 

                extended to MCOs in 2009. Although it applies to MCOs, the GRT meets 

                neither prong of the statutory definition of a health care-related tax. 


                Just because a state tax applies to health care providers does not mean the 

                tax is "related to health care items or services." Rather, as specified in§ 

                1903(w)(3)(A), 85 percent of the burden of the tax must fall on health care 

                providers. Under federal regu lations, the extent of health care providers' tax 

                burden is measured by comparing the tax revenues that the providers pay to 

                the total tax revenues collected. 42 CFR § 433.55(b). When it issued its 

                1992 Interim Final Rule adopting this provision, the then Health Care 

                Financing Administration (HCFA) offered the following example in explaining 

                how it would apply: 





                                                   OFFICE OF THE SECRETARY

                   P.O. BOX 2675, HARRISBURG, PA 17105   I   717.787.260013600 FAX:717.772.2062   I   www.dpw.state.pa.us




Pennsylvania's Gross Receipts Tax on .Medicaid A1annged Care OrganizaJionr (A.-03-13-00201)                                 18
            Stephen Virbitsky                                  - 3­


                      Assume that a State imposes a tax of 5 percent on gross revenues
                      of hospitals and gas stations. The tax generates $100 million in
                      revenues during the State fisca l year, of which $90 million is paid
                      by the hospitals and is deposited into the State General Fund ....
                      Since 90 percent of the tax revenue in this example is generated
                      from providers of health care services, the tax paid by the provider
                      is considered to be a health care-related tax under section
                      1903(a)(w)(3)(A)(i) of the Act.

                   If, in this example, the hospitals paid $60 million in tax revenue and the 

                   gas stations paid $40 million, th e tax would not be considered health 

                   care-related, and would not be subject to the remaining provisions of 

                   the law . 


                57 Fed. Reg. 55127 (November 24, 1992) (emphasis added). Later, in its 1993 Final
                Rule on Health Care -Related Taxes, HCFA reaffirmed that "a State can add health
                care providers to an already existing non-health care-related tax without penalty as
                long as it meets the 85-percent test." 58 Fed. Reg. 43159 (August 13, 1993).

               At no time since Pennsylvania 's GRT was amended in 2009 to apply to
               MCOs have MCOs been responsible for 85 percent or more of the tax
               revenue collected. To the contrary, the GRT paid by MCOs has never
               exceeded 33 percent of the aggregate revenues derived from the GRT in any
               SFY. In concluding that the GRT is a health care-related tax , the draft Report
               overlooks this critica l fact , and focuses instead solely on the application of the
               tax to MCOs. Under this logic, the 85 percent test would become superfluous
               and any number of state or local taxes, including corporate taxes, income
               taxes, sales and uses taxes, would be transformed into health care-related
               taxes subject to§ 1903(w). HCFA recognized tha t Congress did not intend
               that result when it enacted the Medicaid Voluntary Contribution and Provider­
               Specific Tax Amendments of 1991 , Public Law 102-34. As HCFA stated in its
               hospital/gas station example, "The fact that this tax includes hospitals does
               not in and of itself subject it to the provisions of Pub. L. 102-234." Here,
               because MCOs pay conside rably less than 85 percent of the tax revenues
               co llected under the GRT, the GRT is not a health care-re lated tax under§
               1903(w)(3)(A)(i).

                As noted above, the GRT is not limited to health care providers. Therefore, it
                is also necessary to examine whether MCOs are treated the same as other
                companies subject to the tax in dete rmining whether the GRT is a health care
                related tax under§ 1903(w)(3)(A). The draft Report claims that MCOs are
                treated differently under the GRT because they are assessed at a higher tax
                rate than other companies and the proceeds collected from MCOs are
                deposited into a restricted fund account while other GRT revenues are


                                                  OFFICE OF THE SECRETARY

                  P.O. BOX 2675, HARRISBURG, PA 17105   I   717.787.260013600 FAX:717.772.2062   I   www.dpw.state.pa.us




Pennsylvania's Gross Receipts Tax on .Medicaid A1annged Care OrganizaJionr (A-03-13-00201)                                 19
             Stephen Virbitsky 	                                - 4­

                deposited into the General Fund without restriction . DPW disagrees with the
                conclusion that MCOs are subject to disparate treatment.

                The GRT is administered by the Pennsylvania Department of Revenue in the
                same manner for MCOs as other companies. MCOs must report and pay
                their tax at the rate specified in the GRT law at the same time and in the
                same way as other companies. If they fail to correctly report and pay their
                GRT, they are subject to the same penalties imposed on other taxpayers.
                While the GRT does provide for different tax rates depending on the type of
                company, your report fails to note that MCOs are taxed at the same effective
                tax rate as electric companies, which , on average , accounted for
                approximately 45 percent of all GRT revenues during SFYs 2010, 2011 and
                2012. Further, as noted in the draft Report, MCOs are also assessed the
                same periodic surcharge levied on other companies subject to the GRT.

                Because MCOs are treated the same as other companies subject to the GRT,
                the GRT is not a health care -related tax under§ 1903(w)(3)(A)(ii). That the
                tax proceeds collected from MCOs are deposited in a restricted account
                makes no difference in how the MCOs are treated under the tax. As HCFA
                stated in its 1992 Interim Rule , "Nor is the dedicated use of the tax revenue a
                consideration in determining the applicability of the statutory requirements.
                Rather, in determining whether or not the provisions of the law apply to this
                tax program, it must first be determined , in accordance with section
                1903(w)(3)(A) of the Act, if the tax program is considered 'health care­
                related."' 57 Fed. Reg. 55127 (November 24, 1992). With the exception of
                the restrictions in § 1903(w), which only apply to health care-related taxes,
                Congress has placed no restrictions on the use of state tax revenues to fund
                Medicaid expenditures.

                Under federal regulations, public funds appropriated directly to and under the
                administrative control of the state Medicaid agency can be used as the state
                share in claiming federal financia l participation so long as the public funds are
                not federal funds. 42 CFR § 433.51 . The GRT revenues meet these
                requirements: they are public funds derived from a non-health care-related
                state tax, which are appropriated directly to the State Medicaid agency and
                under its administrative control.

             II. 	 The State Appropriately Recogn izes and Reimburses the GRT in its MCO
                   Payments.

                Because the GRT is not a health care related-tax as defined in §1903w(3)(A),
                the restrictions and requirements relating to such taxes do not apply.
                Consequently, it is unnecessary to address the reasons why OIG believes the
                GRT is an impermissible tax. Nonetheless, DPWtakes issue with OIG 's
                conclusion that MCOs are held harmless simply because our rate setting
                methodology appropriate ly recognizes and reimburses the GRT tax as an

                                                   OFFICE OF THE SECRETARY

                   P.O. BOX 2675, HARRISBURG, PA 17105   I   717.787.260013600 FAX:717.772.2062   I   www.dpw.state.pa.us




Pennsylvania's Gross Receipts Tax on .Medicaid A1annged Care OrganizaJionr (A.-03-13-00201)                                 20
             Stephen Virbitsky                                  - 5­

                allowable administrative cost. Federal law specifically provides that the hold
                harmless provisions of§ 1903(w)(3) "shall not prevent use of the tax to
                reimburse hea lth care providers in a class for expenditures under this
                subchapter nor preclude States from relying on such reimbursement to justify
                or explain the tax in the legislative process." 42 U.S.C. § 1396b(w)(4)(C)
                Consistent with this statutory provision, CMS has acknowledged that states
                may reimburse the Medicaid portion of providers' fee costs and that states can
                and do use health care-related taxes to support their Medicaid Programs,
                including making supplemental payments to providers paying the health care­
                related fees. See, e.g., 73 Fed. Reg . at 9687, 9690-9691 , 9692, and 9694.

                For Pennsylvania, failure to account for the GRT would have violated the
                requirement that the State pay MCOs based on actuarially sound capitation
                payment rates. See 42 CFR § 433.8(c). Indeed, to comply with that
                requirement, DPW amended its managed care contracts and updated its rate
                setting methodology and payments after the GRT extended to MCOs in 2009
                to specifically recognize and reimburse the GRT as an allowable cost. Before
                doing so , DPWwas required to seek and obtain CMS approval. CMS initially
                raised questions about the changes DPW was proposing. In response, DPW
                advised CMS that the GRT was a mandatory cost incurred by the MA MCOs
                under current state law and that Pennsylvania's proposed payment structure
                was intended to recognize and reimburse that mandatory tax cost when it
                comes due in a manner that does not exceed the final tax obligation of the
                MCOs. DPW described in detail how the payments would be made and
                provided CMS with a certification from its actuary that the proposed payment
                structure would resu lt in actuarially sound rates to the MA MCOs. DPW noted
                that the payments made under the MCO contracts properly reflected the
                liability of the MCOs for legitimate costs incurred under current state law,
                including the GRT and advised that its payments would not be actuarially
                sound if they did not include an appropriate allowance for the GRT obligation.
                Only after carefu l and extended consideration of these proposed changes did
                CMS approve the MCO contracts and rate methodology. In each of the
                fol lowing years since 2009, CMS has continued to approve Pennsylvania's
                contracts and payment structure recognizing and reimbursing the GRT.

             Ill. Denying Federal Matching Funds for the GRT Would Be Unreasonable and Unjust.

                As noted above, the GRT is not a hea lth care-re lated tax; rather it is a
                legitimate state revenue source of public funds that qualify as the state share
                in claiming FFP. Had CMS concluded otherwise, it had ample opportunity to
                notify Pennsylvania. Instead, with full knowledge that Pennsylvania had
                extended the GRT to MCOs, CMS not only acquiesced in this fund ing source
                - it affirmatively approved Pennsylvania's managed care contracts and
                payment structure recognizing and reimbursing the GRT as an allowable cost
                for federal claiming purposes. Moreover, CMS did this knowing full well that
                the GRT only applied to Medicaid MCOs.

                                                   OFFICE OF THE SECRETARY

                   P.O. BOX 2675, HARRISBURG, PA 17105   I   717.787.260013600 FAX:717.772.2062   I   www.dpw.state.pa.u s




Pennsylvania's Gross Receipts Tax on .Medicaid A1annged Care OrganizaJionr (A.-03-13-00201)                                  21
             Stephen Virbitsky                                  - 6­


                Before the GRT was enacted , the Commonwealth's then State Medicaid
                Director met with and had multiple conversations with CMS officials, including
                the CMS Administrator, to explain the circumstances in Pennsylvania and
                Commonwealth's need to find an alternate funding source for the Medicaid
                managed care assessment which was sun-setting as a result of changes in
                federal law. Pennsylvania was not alone in attempting to deal with the
                significant financial consequences of this change . Other states, including
                California , Ohio and Michigan, faced with the same challenge, either had or
                were in the process of enacting laws to extend existing state taxes to make
                up for the anticipated funding shortfalls. CMS advised State officials that,
                until it made changes to its existing regulations, the states could implement
                these measures to avoid funding crises for their State Medicaid Programs.

                Relying on these assurances from its Federal partner, Pennsylvania
                proceeded in good faith to extend the GRT and, with Federal approval, has
                used the proceeds from this tax ever since to support its Medicaid Program.
                After waiting more than three years, it would be unreasonable and
                fundamentally unjust for CMS to reverse course, recover nearly $1 Billion in
                federal funds, and withdraw this financia l support going forward . The
                consequences of such actions would be devastating, not only to the
                Commonwealth's Medical Assistance Program and the individuals who rely
                on this safety net, but to Pennsylvania's economy as a whole . Particularly at
                a time when the Commonwealth is seeking to provide greater access to
                hea lth care coverage for uninsured low-income Pennsylvanians, it is essential
                that this critica l funding source remains intact.

             OIG Recommendation : We recommend that CMS clarify its policy concerning
             permissible health-care -related taxes with a ll states.

            DPW Response: DPW supports the OIG's recommendation. Pennsy lvan ia's
            objective has always been to comply with federal law. For that reason, DPW
            sought gu idance from CMS before the GRT was enacted and has repeatedly
            sought and obtained CMS approval in recognizing the GRT as an allowable cost
            in our payment structure. As stated in DPWs earlier response , CMS advised
            Pennsylvania and other states that they could implement measures to expand
            non hea lth care -related taxes until CMS made changes to its regu lations. If and
            when those changes are made, Pennsylvania will comply. Until then , however,
            GRT revenues qua lify under applicable federal law and regulations as the state
            share in claiming federal financial participation.

            Finally, OPW reviewed the validity of the draft report and has identified the following
            questionable or inaccurate facts:




                                                   OFFICE OF THE SECRETARY

                   P.O. BOX 2675, HARRISBURG, PA 17105   I   717.787.260013600 FAX:717.772.2062   I   www.dpw.state.pa.us




Pennsylvania's Gross Receipts Tax on .Medicaid A1annged Care OrganizaJionr (A.-03-13-00201)                                 22
             Stephen Virbitsky 	                                   -7­

                • 	 After significant effort, recognizing the limitations related to timing differences,
                    and following the methodo logy provided by the OIG\ DPW is unable to verify
                    the following amounts and requests that OIG provide additional information
                    detailing the bases for these findings:

                     o 	 $1 ,603,980,052 was reimbursed to MCOs for the Gross Receipts Tax.
                     o 	 $981 ,337 ,949 of payment in FMAP by the Federal government.
                     o 	 $1 ,135,513,480 of Gross Receipts Tax revenue was retained by the state .

                • 	 DPW contracted with 8 MCOs for physical health services and not 11 as
                    identified on page #2 of the draft report .

                   Thank you for your consideration of our response . If you have questions
            or concerns regard ing this request, please contact Alexander Matolyak, Director,
            Division of Audit and Review at (717) 783-7786 or amatolyak@pa .gov.

                                                         Sincerely ,




                                                         Executive Medicaid Director




            1 DPW calculated these amounts usiruJ the following input rec.:ivcd via. email fi:om the OIG in mid-November 2013,
            "The capitation payments were calculated by multiplying 5.9 percent times total capitation paymenb reported on the
            CM$64".
                                                         OFFICE OF THE SECRETARY

                    P.O. BOX 2675, HA RRISBURG, PA 17105    I   717.787.260013600 FAX:717.772.2062   I   www.dpw. state.pa.us




Pennsylvania's Gross Receipts Tax on .Medicaid A1annged Care OrganizaJionr (A.-03-13-00201)                                      23
APPENDIX D: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS




Pennsylvania’s Gross Receipts Tax on Medicaid Managed Care Organizations (A-03-13-00201)   24
Pennsylvania’s Gross Receipts Tax on Medicaid Managed Care Organizations (A-03-13-00201)   25
Pennsylvania’s Gross Receipts Tax on Medicaid Managed Care Organizations (A-03-13-00201)   26
